IN THE
SUPREME COURT OF THE UNITED STATES

DIMARZIO SWADE SANCHEZ, Petitioner,
v.

UNITED STATES OF AMERICA, Respondent.

CERTIFICATE OF SERVICE
I, Kristina Neal, a member of the Bar of this Court, hereby certify that on AUGUST 14,
2020, a copy of the Petition of Writ of Certiorari and Motion to Proceed in Forma Pauperis in the
above-entitled case were mailed, first class postage prepaid to: Leif Johnson, Assistant United
States Attorney, United States Attorney’s Office — Billings, 2601 2"! Avenue North, Billings,
Montana 59101-2238 and Solicitor General of the United States, Room 5616, Department of
Justice, 950 Pennsylvania Ave., N.W., Washington D.C. 20530-0001, counsel for all the
respondents herein. I further certify that all parties required to be served have been served.
STINA NEAL
Counsel of Record

4385 Wylie Drive
Helena, MT 59602

DATED: August 14, 2020
